                                                               Issue Date
                                                                            April 30, 2007
                                                               Audit Report Number
                                                                            2007-AT-1008




TO:        Boyce Norris, Director, Office of Public Housing, 4APH


FROM:
           James D. McKay
           Regional Inspector General for Audit, 4AGA


SUBJECT:   Housing Authority of DeKalb County, Decatur, Georgia, Section 8 Units
           Generally Met Housing Quality Standards

                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Housing Authority of DeKalb County’s (Authority) Section 8
           Housing Choice Voucher program pertaining to housing quality standards
           inspections. The audit was conducted as part of the U.S. Department of Housing
           and Urban Development (HUD), Office of Inspector General’s (OIG) strategic
           plan.

           Our objective was to determine whether the Authority carried out its Section 8
           program housing quality standards inspections in accordance with federal
           requirements.


 What We Found


           The Authority generally administered its Section 8 program in accordance with
           HUD requirements. Our inspections identified minor deficiencies in 10 of the 15
           units inspected. We identified two units that had insignificant preexisting
           violations not identified by the Authority’s inspectors.


Table of Contents
           Based on our review of 15 inspections of Authority-administered Section 8 units,
           the Authority adequately performed housing quality standards inspections and
           required timely correction of inspection discrepancies. Thus, the report contains
           no finding, and no further action is necessary.


Auditee’s Response


           On March 16, 2007, we provided the Authority copies of our inspection reports
           for the 10 units that failed to meet housing quality standards. The Authority
           agreed with our inspection results, notified the owners of the conditions, and
           required them to correct the violations. We provided the draft report to Authority
           officials on April 9, 2007. The Authority decided not to provide a written
           response to the report or hold an exit conference because the report contained no
           findings.




Table of Contents

                                            2
                        TABLE OF CONTENTS

Background and Objectives                   4

Results of Audit                            5

Scope and Methodology                       6

Internal Controls                           7




                                3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of DeKalb County (Authority), located in Decatur, Georgia, was
established in December 1955 in accordance with state and federal law to serve the citizens and
communities of DeKalb County, Georgia, by promoting quality housing and related economic
development through the engagement of human and financial resources. Initially, the Authority
was a part of the DeKalb-Decatur Housing Authority. Effective November 3, 2003, the DeKalb-
Decatur Housing Authority split into two separate housing authorities. Various interim and
acting executive directors administered the Authority until a permanent executive director was
appointed in October 2004 to address unresolved separation issues and move the Authority
forward with revitalization and development efforts for affordable housing. On October 13,
2006, the board of commissioners terminated the executive director’s contract. Currently, an
interim executive director is responsible for the Authority’s daily operations.

The Authority’s six-member board of commissioners oversees the direction of the Authority.
The board of commissioners is appointed by the chief executive officer of DeKalb County and
ratified by the county commission.

The Authority administers 5,414 housing choice vouchers in DeKalb County, Georgia, and its
vicinity. The annual housing assistance payments and administrative fees approved were $32.8
million for fiscal year 2005 and $31.4 million for fiscal year 2006. In addition, annual housing
assistance payments and administrative fees pending are $20.5 million for fiscal year 2007.

The U.S. Department of Housing and Urban Development’s (HUD) Georgia State Office of
Public Housing in Atlanta, Georgia, is responsible for overseeing the Authority.

HUD designated the Authority as a high-performing Section 8 public housing authority for fiscal
years 2005 and 2006.

Our objectives were to determine whether the Authority carried out its Section 8 program
housing quality standards inspections in accordance with federal requirements and whether
additional audit work was warranted.




Table of Contents

                                                4
                                 RESULTS OF AUDIT

The Authority appears to have an adequate system in place for ensuring timely inspections and
timely completion of the deficiencies. Our inspections identified minor deficiencies in 10 of the
15 units inspected. According to housing quality standards, these units failed, but the
deficiencies were easily repairable by the landlord and present no health or safety issues to the
tenants. Seven of the units did not meet housing quality standards due to tenant-related damages.
The inspections showed that individual units had from one to six fail conditions. Most of the
violations noted were minor, such as deteriorated weather stripping on door, loose bathroom sink
faucet hardware, and a disabled vehicle on the property. Two units had insignificant preexisting
violations not identified by the Authority’s inspectors. However, there were no indications of
systemic problems regarding the units inspected. In addition, the deficiencies identified by the
inspectors during their prior inspections were corrected. Although there were units that failed to
meet housing quality standards, the Authority did not have any significant deficiencies that
warranted additional audit work. The information below shows the frequently occurring
violations for the 10 units.

   •   Four (26 percent) units contained only one violation,
   •   One (6 percent) unit contained two violations,
   •   Two (13 percent) units contained three violations,
   •   Two (13 percent) units contained four violations, and
   •   One (6 percent) unit contained six violations.

The Authority agreed with our inspection results. It notified the owners of the inspection results
and requested that they correct the violations. The Authority also agreed to reinspect the units to
ensure that the violations have been corrected. Thus, the report contains no finding, and no
further action is necessary.




Table of Contents

                                                 5
                        SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed the following:

   •   Applicable laws, regulations, and other HUD program requirements;
   •   The Authority’s Section 8 policies, procedures, and administrative plan;
   •   Minutes from the board of commissioners meetings;
   •   The Authority’s previous inspection reports; and
   •   The Authority’s latest independent public accountant report and HUD program
       monitoring reviews.

We interviewed the Atlanta, Georgia, Office of Public Housing program officials and Authority
management and staff. We obtained a listing of the inspections performed by the Authority
inspectors from November 1, 2006, through January 31, 2007. We found that the Authority had
inspected 2,061 units during the period. We used a statistical software program to select a
random sample. The software returned a sample size of 65 units with a random start based on a
90 percent confidence level, 10 percent precision level, and 50 percent expected error rate. We
used the software to generate 65 additional sample units to be used as replacements if needed.
We inspected 15 (13 from the sample and two replacement units) of the 65 units during March
2007. We discontinued further inspections because our initial sample did not identify significant
deficiencies. The Authority staff scheduled and participated in the inspections. An assistant
housing management specialist from HUD’s Office of Public and Indian Housing assisted us in
conducting five inspections.

Our audit generally covered the period July 1, 2005, through December 31, 2006, but we
expanded the period as needed to accomplish our objectives. We performed our on-site work
from February through March 2007 at the Authority’s offices in Decatur, Georgia, and the HUD
Georgia State Office of Public Housing.

We performed our review in accordance with generally accepted government auditing standards.




 Table of Contents

                                                6
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our audit objectives:

                •   Compliance with laws, regulations, policies, and procedures that
                    management has implemented to reasonably assure that resource use is
                    consistent with laws and regulations.

                •   Policies and procedures that management has implemented to reasonably
                    assure that resources are safeguarded against waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              We did not identify any significant weaknesses in the controls cited above.




Table of Contents

                                                7
